No. 19-631
IN THE SUPREME COURT OF THE UNITED STATES
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
PETITIONERS
V.

AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the JOINT APPENDIX, via first-class mail, postage prepaid, this 24th day of February 2020.
ISee Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 24, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0631
BARR, WILLIAM P., ATTORNEY GENERAL, ET AL.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., El AL.

ALAN BUTLER
ELECTRONIC PRIVACY INFORMATION
CENTER
1519 NEW HAMPSHIRE AVE., NW
WASHINGTON, DC 20036
202-483-1140
BUTLER@EPIC.ORG
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL. CLEMENT @KIRKLAND. COM
ROMAN MARTINEZ
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
WASHINGTON, DC 20004
202-637-3377
ROMAN.MARTINEZ@LW.COM
WILLIAM E. RANEY
COPILEVITZ LAM & RANEY, PC
310 WEST 20TH STREET
SUITE 300
KANSAS CITY , MO 64108-2025
816-472-9000
BRANEY@CLRKC.COM

